TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Taxpayers Do Not Always Receive Quality
                       Responses When Corresponding
                              About Tax Issues



                                            July 6, 2011

                              Reference Number: 2011-40-058




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


TAXPAYERS DO NOT ALWAYS                                   but only 27 (56 percent) of 48 taxpayers
RECEIVE QUALITY RESPONSES WHEN                            received their responses timely.
CORRESPONDING ABOUT TAX ISSUES                        •   Of 73 correspondence cases from the Field
                                                          Assistance Office, only six (8 percent)

Highlights                                                taxpayers received timely and accurate
                                                          responses.

Final Report issued on July 6, 2011                   In addition, interim letters, required to be sent to
                                                      taxpayers if a response cannot be issued within
Highlights of Reference Number: 2011-40-058           the 30 calendar days, were not always issued.
to the Internal Revenue Service Commissioner          Not all procedures are being followed. Cases
for the Wage and Investment Division.                 are not properly categorized, suspensed, or
IMPACT ON TAXPAYERS                                   linked, and the quality review process does not
                                                      ensure all procedures were followed.
In November 1998, the Internal Revenue
Service (IRS) issued Policy Statement P-6-12          Finally, the IRS is not following Policy Statement
requiring employees to initiate a response to         P-6-12 guidelines and has not implemented any
taxpayer correspondence within 30 calendar            measures or processes to monitor and evaluate
days. Although most responses to taxpayers’           Policy Statement P-6-12 correspondence to
correspondence tested were accurate, most             ensure taxpayers receive timely responses to
responses were not timely. When taxpayers’            their correspondence.
issues are not addressed timely, taxpayers are        WHAT TIGTA RECOMMENDED
mailed interim letters. However, none of the
systemically issued interim letters provide           TIGTA recommended and the IRS generally
taxpayers with any information specific to their      agreed to: 1) clarify instructions to ensure
accounts, and the content is not clear regarding      employees follow procedures; 2) revisit Policy
what taxpayers need to do.                            Statement P-6-12 guidelines to ensure they
                                                      reflect the IRS’s current procedures and
WHY TIGTA DID THE AUDIT                               expectations; 3) complete the study of the
This audit was initiated to determine whether         interim letters; and 4) update quality review
the IRS was appropriately processing                  procedures to include a review of
correspondence from taxpayers or their                correspondence category codes and a
representatives when required to meet its own         determination as to whether cases should have
policy requirements to respond to a taxpayer          been suspensed and/or linked.
within 30 calendar days or provide an update          The IRS did not agree with the outcome
on the status of the response.                        measures claimed in the report, stating the
WHAT TIGTA FOUND                                      projections were based on non-representative
                                                      samples. However, the samples were random
Two statistical samples and one judgmental            samples from the defined universe of cases. As
sample from three IRS functions showed that           such, TIGTA believes they are representative.
most taxpayers do not receive quality responses       The five-year projections are, in fact, forecasts.
to their correspondence.                              This type of forecasting is used by the Federal
                                                      Government in many circumstances.
•   Of 73 correspondence cases sampled from
    the Accounts Management function, only
    14 (19 percent) taxpayers received timely
    and accurate responses.
•   Of 48 correspondence cases sampled in the
    Automated Underreporter Program, all
    48 taxpayers received accurate responses,
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               July 6, 2011


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Taxpayers Do Not Always Receive Quality
                              Responses When Corresponding About Tax Issues
                              (Audit # 201040022)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) was appropriately processing correspondence from taxpayers or their representatives when
 required to meet its own policy requirements to respond to a taxpayer within 30 calendar days or
 provide an update on the status of the response. This audit was requested by the IRS Oversight
 Board and was part of our Fiscal Year 2010 Annual Audit Plan. It addresses the major
 management challenge of Providing Quality Taxpayer Service Operations.
 In the general comments in IRS management’s response, management requested clarification on
 the information in Figure 1: Quality Responses From Testing in Three IRS Functions on page 3
 of the draft report. In the final report, Figure 1 has been revised to show the functions tested, the
 sample size of each function, and the quality responses from each function.
 Management’s complete response to the draft report is included in Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.
                         Taxpayers Do Not Always Receive Quality Responses When
                                     Corresponding About Tax Issues




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Most Taxpayers Do Not Receive Quality Responses to
          Their Correspondence ................................................................................... Page 3
                    Recommendations 1 and 2: .............................................. Page 15

                    Recommendations 3 and 4: .............................................. Page 16


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 17
          Appendix II – Major Contributors to This Report ........................................ Page 19
          Appendix III – Report Distribution List ....................................................... Page 20
          Appendix IV – Outcome Measures............................................................... Page 21
          Appendix V – Management’s Response to the Draft Report ....................... Page 24
                    Taxpayers Do Not Always Receive Quality Responses When
                                Corresponding About Tax Issues




                                          Background

Each year the Internal Revenue Service (IRS) sends out more than 200 million notices and letters
to taxpayers. Many of these notices and letters require written responses from taxpayers.
Although the IRS does not track the total incoming mail it receives, the Government
Accountability Office recently reported that the IRS received 20 million letters, forms, and other
types of taxpayer correspondence in Fiscal Year 2010.1
IRS Policy Statement P-6-12, Timeliness and Quality
of Taxpayer Correspondence, states:                                  The key to identifying taxpayer
                                                                     correspondence is to ask
    •   The IRS will issue quality responses to all                  if the taxpayer is:
        taxpayer correspondence.
                                                                               • Waiting for a
    •   Taxpayer correspondence is defined as all                         response?
        written communication from a taxpayer or his or                • Waiting for an action
        her representative, excluding tax returns,                        to be taken?
        whether solicited or unsolicited. This includes
        taxpayer requests for information, as well as                  • Asking a question?
        that which may accompany a tax return;
        responses to IRS requests for information; and annotated notice responses.
    •   A quality response is timely, accurate, professional in tone, and responsive to taxpayer
        needs (i.e., resolves all issues without further contact).
IRS internal guidelines define a quality response as timely when initiated within 30 calendar
days of the IRS received date.
Much of the correspondence the IRS receives deals with the processing of individual tax returns.
Two functions, the Wage and Investment Division Accounts Management function and
Automated Underreporter Program, work taxpayer correspondence dealing with processing
issues and underreported income.




1
 2010 Tax Filing Season: IRS’s Performance Improved in Some Key Areas, but Efficiency Gains Are Possible in
Others (GAO-11-111, dated December 2010).
                                                                                                      Page 1
                     Taxpayers Do Not Always Receive Quality Responses When
                                 Corresponding About Tax Issues



    •   The Accounts Management function is comprised of IRS employees who assist taxpayers
        who call or write to the IRS with questions about their tax returns or tax accounts.
        Employees answer taxpayer tax-related account questions by providing taxpayers with
        information on the status of their tax returns and refunds. Accounts Management
        function employees are responsible for resolving the majority of issues and questions to
        settle taxpayer accounts. Taxpayers correspond to IRS letters and notices generated
        during the processing of their tax returns.
    •   The Automated Underreporter Program matches taxpayer income and deductions
        submitted by third parties such as banks, brokerage firms, and other payers on
        information returns against amounts reported on individual income tax returns. In the
        Automated Underreporter Program, correspondence worked includes responses from
        taxpayers to underreporter notices. The taxpayer may be agreeing to a proposed
        adjustment or sending in additional information to support the original tax return.
This review was performed at the Wage and Investment Division Headquarters in
Atlanta, Georgia; the Atlanta Campus2 in Atlanta, Georgia; the Austin Campus in Austin, Texas;
the Brookhaven Campus in Holtsville, New York; the Field Assistance Office in Atlanta,
Georgia; and the Small Business/Self-Employed Division in Atlanta, Georgia, during the period
May 2010 through March 2011. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




2
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 2
                      Taxpayers Do Not Always Receive Quality Responses When
                                  Corresponding About Tax Issues




                                       Results of Review

Most Taxpayers Do Not Receive Quality Responses to Their
Correspondence
Although the majority of responses to the taxpayers’ correspondence tested were accurate and
addressed all issues, not all taxpayers received responses as required, and most responses were
not timely. As defined in IRS internal guidelines:
         A quality response is one that is accurate, timely, and addresses all issues based on the
         information provided. . . . Timely means that a final response was initiated within
         30 days of IRS received date.

Testing included sampling cases from three IRS functions — the Accounts Management
function, the Automated Underreporter Program, and the Field Assistance Office.3 Some
correspondence did not require that the function respond to the taxpayer by mail, but instead
required some other response or action to resolve the taxpayer’s issue(s). Nevertheless, the
response/action is a quality response only if initiated within 30 calendar4 days of the IRS
receiving the correspondence.
Figure 1 shows the sample size and the quality responses from each of the three functions tested.
           Figure 1: Quality Responses From Testing in Three IRS Functions

                                                            Accounts           Automated            Field
                                                           Management         Underreporter       Assistance
                                                            Function            Program             Office

     Sample Size                                                 73                  48                 73

     Quality Response—Accurate and Timely                     14 (19%)           27 (56%)            6 (8%)

    Source: Treasury Inspector General for Tax Administration analysis of taxpayer correspondence.

     •   Accounts Management function – From a statistically valid sample of 73 cases, only
         14 (19 percent) taxpayers received timely and accurate actions and/or responses. Of
         73 cases, 62 required that a written response be mailed to the taxpayers; however, only
         56 responses were mailed. From the 56 cases tested that included responses that were


3
  Employees in the IRS’s Field Assistance Office provide taxpayers with face-to-face assistance but at times assist
the Accounts Management function by working taxpayer correspondence inventories.
4
  Hereafter, all references to days are to calendar days.
                                                                                                              Page 3
                     Taxpayers Do Not Always Receive Quality Responses When
                                 Corresponding About Tax Issues



         mailed to taxpayers, 45 responses (80 percent) were accurate and addressed all issues, but
         only 8 of the 45 responses were timely mailed.
   •     Automated Underreporter Program – From a judgmental sample of 48 correspondence
         cases, 27 (56 percent) taxpayers received their responses timely. All of the 48 taxpayers
         received accurate responses.
   •     Field Assistance Office – From a statistically valid sample of 73 cases, only
         6 (8 percent) taxpayers received timely and accurate actions and/or responses. Of
         73 cases, 72 required that a written response be mailed to the taxpayers; however, only
         65 responses were mailed. From the 65 cases tested that included responses that were
         mailed to taxpayers, 57 (88 percent) responses were accurate and addressed all issues, but
         only 6 of the 57 responses were timely mailed.
IRS guidelines state that a response is timely when initiated within 30 days of the IRS received
date. However, Accounts Management function officials stated that they consider a final
response timely if the IRS issues interim letters to the taxpayers. They emphasized that 30 days
is not realistic considering the magnitude of correspondence and the available resources.
Accounts Management function guidelines state:
         Final response to taxpayer(s) must be initiated by the 30th day from the earliest IRS received
         date, unless the taxpayer has received an interim contact or interim contact has been initiated
         from us by the 30th day. . . .

Nevertheless, Accounts Management function guidelines continue by stating:
         Timely means that a final response was initiated within 30 days of IRS received date. However,
         when possible, you should try to initiate quality responses in less time.

Figure 2 shows that interim letters were not always mailed to taxpayers.
                    Figure 2: Analysis of Responses and Interim Letters
                                                      Accounts          Automated            Field
                                                     Management        Underreporter       Assistance
                                                      Function           Program             Office

        Quality Response Within 30 Days                     14                27                 6
        Response Within 30 Days, but
                                                                                                 3
        Required Response Not Mailed
        Response > 30 Days and Interim
                                                            41                  9               59
        Letters Mailed
        Response > 30 Days and Interim
                                                            18                12                 5
        Letters Not Mailed
        Total Cases Sampled Per Function                    73                48                73
       Source: Treasury Inspector General for Tax Administration analysis of taxpayer correspondence.

                                                                                                        Page 4
                   Taxpayers Do Not Always Receive Quality Responses When
                               Corresponding About Tax Issues



If a case takes more than 60 days to resolve, the IRS may send more than 1 interim letter to a
taxpayer. From our samples, the Accounts Management function mailed 54 interim letters and
the Field Assistance Office mailed 82 interim letters. IRS officials stated that assistors must give
taxpayers 45 days to respond to any additional information the IRS must request. During this
time, the case is suspensed and interim letters become necessary. However, for our statistical
sample, the cases were closed without suspending.
If correspondence were processed timely, the potential cost savings for the Accounts
Management function and the Field Assistance Office would be $424,318 related to
1,039,997 interim letters that were issued as a result of correspondence cases being processed
untimely, projected to $2,121,590 over 5 years.

Most taxpayer responses were accurate, but some taxpayers did not receive the
required responses
From the 56 cases tested from the Accounts Management function that included responses
mailed to taxpayers, 11 (20 percent) responses were inaccurate and/or did not address all issues.
From the 65 cases tested from the Field Assistance Office that included responses mailed to
taxpayers, 8 (12 percent) responses were inaccurate and/or did not address all issues. In addition,
issues in 13 cases from these 2 samples required that taxpayers receive responses to their
correspondence, but responses were not sent—6 of these were from the Accounts Management
function and 7 were from the Field Assistance Office.
This occurred because of employee error or employees were not following procedures and
guidelines. For example:
   •   *****************************1******************************************
       ************************************************************************
       ************************************************************************
       *****************
   •   **********************************1*************************************
       **************************************************.
   •   **********************************1*************************************
       ************************************************************************
       ************************************************************************
       ************************************************************************
       ************************************************************************
       ************************************************************************
       ************************************************************************
       ***************************************************.



                                                                                             Page 5
                  Taxpayers Do Not Always Receive Quality Responses When
                              Corresponding About Tax Issues



       *****************************************1******************************
       ************************************************************************
       ************************************************************************
       ************************************************************************
       *****************************************************************.
       ***********************************1************************************
       ************************************************************************
       ************************************************************************
       *************************************************************.
   •   ******************************1*****************************************
       ************************************************************************
       ************************************************************************
       ************************************************************************
       ************************************************************************
       ********************************************************************.
   •   *********************************1**************************************
       ************************************************************************
       ************************************************************************
       ************************************************************************
       ************************************************************************
       **********************************************************************
The cases were all closed, even though the issues may not have been resolved.
Case guidelines were not always followed
IRS guidelines require that Accounts Management function and Field Assistance Office
employees (called assistors) control each case if the case meets Policy Statement P-6-12 criteria
and is not closed within 14 calendar days. Any action taken while the case is in an assistor’s
inventory must be documented and updated appropriately.
When additional information from the taxpayer or another document from IRS files is needed,
the assistor has 2 options—to close or suspend the case for 40 days (70 days for taxpayers who
are living overseas). If the case is closed after the taxpayer replies to an IRS request for
additional information, a new case is opened and a link between the new case and the closed case
is created. If the case was in suspense and additional information is received, the information is
associated with the suspensed case, the case is removed from suspense, and the information is
associated with the case.
If the taxpayer does not reply to a suspense case, the case is to be closed using the available
information and the appropriate closing letter sent to the taxpayer. Suspense case files should
have a history sheet or record attached to reflect all actions taken and the dates.

                                                                                           Page 6
                        Taxpayers Do Not Always Receive Quality Responses When
                                    Corresponding About Tax Issues



Test results identified that assistors are not linking cases.
       •   6 (8 percent) of 73 cases in the Accounts Management function should have been linked
           to the original case and were not.
       •   17 (23 percent) of 73 cases in the Field Assistance Office should have been linked to the
           original case and were not.
Further, there were cases that appeared that they should have been placed in suspense; however,
guidelines were not clear on when cases should be suspended. When assistors close cases
instead of placing them in suspense, additional correspondence may not be associated or linked
with related cases and all taxpayer issues may not be addressed.
Each function tested has its own quality assurance program, which includes an independent
review of a sample of cases and a number of managerial reviews. None of these reviews include
a review of whether cases are correctly placed in suspense or linked.

Most responses are not initiated within the required 30 calendar days
Figure 3 shows that the IRS is not timely responding to taxpayer correspondence within
30 days. In Fiscal Year 2010, 1,101,052 taxpayers were potentially burdened. When projected
over 5 years, 5,505,260 taxpayers could potentially be burdened.
                           Figure 3: Analysis of Timeliness of Responses
                                                              Accounts              Automated        Field
                                                             Management            Underreporter   Assistance
                                                              Function               Program         Office

                                     Quality Response          14      19%           27    56%      6     8%

                           Response Within 30 Days5                                                3      4%
                       Response From 31 to 60 Days             29      40%            9    19%     34    47%
                       Response From 61 to 90 Days             22      30%            6    13%     21    29%
                       Response More Than 90 Days               8      11%            6    13%     9     12%

     Total Responses Not Initiated Within 30 Days              59      81%           21    45%     67    92%
                                                   Total*      73     100%           48   100%     73   100%

    Source: Treasury Inspector General for Tax Administration analysis of taxpayer correspondence. *Percentages
    may not add up due to rounding.




5
    Cases were closed within 30 days, but a response was not mailed to taxpayer.
                                                                                                         Page 7
                       Taxpayers Do Not Always Receive Quality Responses When
                                   Corresponding About Tax Issues



Testing showed that assistors in the Accounts Management function and the Field Assistance
Office averaged only 3.6 days and 10.2 days, respectively, to actually work a case. However, it
took an average 56.1 days and 50.8 days, respectively, for the Accounts Management function
and Field Assistance Office to begin working the cases (i.e., the average number of days from
when the IRS received the correspondence to the day assistors received the cases).
The Accounts Management function tracks the time it takes to respond to taxpayers’
correspondence from the IRS received date to the date the case is closed. It also tracks the date
the case is assigned to an assistor. However, its management information system does not
capture the time an assistor spent actually working a case. Figure 4 provides an analysis of the
time it took to resolve the Accounts Management function and Field Assistance Office cases
sampled.
                        Figure 4: Analysis of the Time Taken to Work
                    Cases Sampled in the Accounts Management Function
                                 and Field Assistance Office
                                                                  Accounts             Field
                                                                 Management          Assistance
                                                                  Function             Office

                Average Days From Correspondence
                                                                      56.1               50.8
                Received to Assistor First Action

                Average Days From Assistor First Action
                                                                        3.6              10.2
                to Taxpayer Response
                Average Days From Correspondence
                                                                      59.8               60.9
                Received to Taxpayer Response6

              Source: Treasury Inspector General Tax Administration analysis of sampled cases.

The IRS generally considers any case in process more than 45 days as over-age inventory.
Taxpayer correspondence inventories and workloads are monitored by the number of closures
and over-age inventories.
Over-age inventories remain a challenge for the Accounts Management function
Accounts Management function inventories include correspondence-coded Taxpayer Requests7
and Adjustments. The IRS reports for correspondence-coded Taxpayer Requests show the
average over-age inventory has fluctuated from 74 percent in Fiscal Year 2007 to 62 percent in
Fiscal Year 2010. The over-age inventory for Adjustments inventories has also fluctuated from
25 percent to about 40 percent for Fiscal Years 2007 through 2010. Figure 5 shows the average


6
    When action taken by the assistor could not be determined, the closing date was used.
7
    Correspondence-coded Taxpayer Requests include Policy Statement P-6-12 correspondence.
                                                                                                  Page 8
                      Taxpayers Do Not Always Receive Quality Responses When
                                  Corresponding About Tax Issues



over-age inventory percentage for Taxpayer Requests and Adjustments for Fiscal Years 2007
through 2010.
                           Figure 5: Average Over-age Inventories for
                              Taxpayer Requests and Adjustments8




             Source: IRS management information system reports.
Most incoming mail is received at each of the 10 IRS campuses and deals with a significant
number of tax issues. Correspondence to be worked in the Accounts Management function and
the Field Assistance Office is scanned into the Correspondence Imaging System.9
Correspondence to be worked in the Automated Underreporter Program is shipped to the
respective functions.
Although the time it takes to process mail is a factor in over-age correspondence inventories, of
                                                 greater significance are the resources to work the
        Employees who work taxpayer              inventories. Employees who work taxpayer
      correspondence and/or respond to           correspondence and/or respond to taxpayers also
    taxpayers also assist taxpayers calling      assist taxpayers who seek live assistance through
     the IRS’s toll-free telephone lines and
                                                 the IRS’s toll-free telephone lines and at IRS
           visiting IRS walk-in offices.
                                                 walk-in offices, called Taxpayer Assistance
                                                 Centers. Limited resources require the IRS to
allocate staff between these two priorities.

8
 These are not weighted results.
9
 The Correspondence Imaging System is a system used to scan and convert incoming taxpayer correspondence into
digital images. It puts the scanned images into electronic case folders, which can be easily accessed and worked by
assistors.
                                                                                                           Page 9
                     Taxpayers Do Not Always Receive Quality Responses When
                                 Corresponding About Tax Issues



Because of new legislation and procedural changes, over the last two filing seasons, the IRS
experienced increased correspondence and high call demand on its toll-free telephone lines,
requiring it to choose whether to dedicate more resources to answering taxpayers’ calls or to
responding to taxpayers’ correspondence. However, the toll-free telephone line’s level of
service10 is still lower than it was in Fiscal Year 2007 (when it was above 80 percent) and over-
age inventories have increased.
The IRS has worked with consulting firms and internal business units to help meet higher
telephone demand, improve the overall call experience, and work paper inventories. One of the
consulting firms’ recommendations was to develop and deploy a Telephone and Paper
Optimization tool to balance performance between the telephone and paper channels. The tool
examines the performance and volume levels of both paper and telephone, and balances the
resources to achieve the best-combined performance for both channels. The IRS began working
with this tool in Fiscal Year 2010.
The IRS also recognizes that additional resources are
needed to address both the increasing over-age                          The IRS recognizes that additional
inventories and decreasing telephone service. In its                     resources are needed to address
Fiscal Year 2011 budget request, the IRS has requested                     both the increasing over-age
                                                                       inventory and decreasing telephone
additional funding for the extension of seasonal                                      service.
employees and overtime in Fiscal Year 2011 to allow it
to increase the telephone level of service, respond to
increased workload, and enhance taxpayer service.
The Government Accountability Office and the National Taxpayer Advocate recently reported
that the IRS does not process taxpayer responses timely and does not have performance measures
to assess the timeliness of its taxpayer correspondence.11 The Government Accountability Office
report recommended and the IRS agreed that it should establish a taxpayer correspondence
performance measure.12 The IRS has a number of indicators to monitor correspondence
workload. Developing a performance measure would allow the IRS to better evaluate timeliness,
allowing IRS management to better prioritize telephone or other services, for which such
measures already exist, over providing timely taxpayer correspondence.




10
   Level of service is the IRS’s primary measure of providing taxpayers with access to an assistor. It is the
percentage of callers who wish to speak to an assistor and who are able to speak with one.
11
   National Taxpayer Advocate 2010 Annual Report to Congress, dated January 31, 2010, and 2010 Tax Filing
Season: IRS’s Performance Improved in Some Key Areas, but Efficiency Gains Are Possible in Others
(GAO-11-111, dated December 2010).
12
   Government Performance and Results Act of 1993 (GPRA), Pub. L. No. 103-62, 107 Stat. 285 (codified as
amended in scattered sections of 5 U.S.C., 31 U.S.C., and 39 U.S.C.).

                                                                                                          Page 10
                   Taxpayers Do Not Always Receive Quality Responses When
                               Corresponding About Tax Issues



Correspondence cases are not always properly categorized
The IRS uses category codes to identify the approximately 100 types of individual taxpayer
correspondence. Tests of correspondence from our 2 statistical samples identified that
17 (23 percent) of 73 Accounts Management function cases and 19 (26 percent) of 73 Field
Assistance Office cases were categorized incorrectly.
Employees have received directives emphasizing the importance of using correct category codes,
particularly for budget purposes. Without an accurate
accounting of the type of work it receives, the IRS cannot
determine the resources it needs to distribute and work the     Correspondence category
different types of correspondence. In addition, if                  codes are used for
correspondence is not accurately classified, the case may be           budgeting and
                                                                     inventory control.
worked incorrectly or require transfer to a subject matter
expert in another office or function, further delaying the
response to the taxpayer.
The correspondence category code should be identified during the screening of correspondence.
The correspondence is separated by category code and document type and then assigned to the
location that works that type of correspondence. If the assistor working the case determines the
category code is incorrect, the assistor is instructed to correct the category code.
Employees are not following procedures and a review of category codes is not included in the
IRS’s quality review of correspondence. Inaccurate category codes cause the management
information systems to be unreliable. When data are unreliable, the IRS may not make sound
business decisions. During Fiscal Year 2010, 312,495 cases could potentially have incorrect
category codes, projected to 1,562,475 cases over 5 years.

Interim letters can be confusing
An analysis of 2 of the 3 IRS functions identified that each use letters specific to their function to
reply to taxpayers—totaling 2 initial interim letters; 2 different follow-up letters; 6 other assorted
acknowledgement, apology, transfer, and closing letters; and an assortment of more than
70 letters applicable to numerous tax issues. Taxpayers can receive any number and/or
combination of letters depending on their tax situation. None of the systemically issued interim
letters provides the taxpayer with any information specific to his or her account and the content
is not clear regarding what the taxpayer needs to do,
which can generate calls to the toll-free telephone           An IRS study showed that interim
lines or potential visits to the Taxpayer Assistance          letters are not meeting the Policy
Centers.                                                       Statement P-6-12 objectives but
                                                            have become a vehicle to “buy time”
In January 2010, an IRS study showed that interim                   in case processing.
letters are not meeting the Policy Statement P-6-12
objectives of timeliness and responsiveness but have

                                                                                              Page 11
                         Taxpayers Do Not Always Receive Quality Responses When
                                     Corresponding About Tax Issues



become a vehicle to “buy time” in case processing. Problems were identified with the
ever-increasing number of interim letters being issued. Feedback from taxpayers showed that the
letters are confusing.
Systemically generated interim letters are issued on a cycle. If a closing letter is issued, an
interim letter cannot always be stopped if it is already in the queue. An analysis of a sample of
146 cases identified 20 (14 percent) cases with interim letters issued within 5 days of the
taxpayer’s response. In cases when a response was not sent, the interim letters were issued
within 5 days of closing the case on the IRS management information system (11 cases from the
Accounts Management function and 9 cases from the Field Assistance Office).
In addition, the IRS conducted an analysis of 4,704 cases and identified numerous issues with
interim letters. Figure 6 shows the IRS determined that 12 percent of the interim letters for the
Automated Underreporter Program arrived after the case was closed.
                                 Figure 6: IRS Analysis of Interim Letters

                                                                              Accounts            Automated
                                                                             Management          Underreporter
     Issues                                                                   Function             Program
     Volume Analyzed                                                              2,296                2,408
     Interim Letter Arrived After Case Closure                                     0%                  12%

     Interim Letter Arrived Within 10 Days of Case Closure                        19%                  29%
     First Interim Letter Exceeded 30 Days After Correspondence
                                                                                  12%                  29%
     Received
     Second and Third Interim Letters Exceeded 45 Days From
                                                                                  11%                   3%
     First Interim Letter
     No Interim Letters Issued                                                    20%                   0%
     Source: IRS analysis of interim letters.13

In its Interim Letter Report January 2010, the IRS proposed a four-phase test plan to improve the
taxpayer experience and use of its resources. Phase I recommended capturing call volume trends
and patterns with the use of a special toll-free telephone number on two types of interim letters
and use of Contact Analytics14 to secure specific taxpayer feedback on issues and concerns
raised on telephone calls. On March 23, 2011, IRS officials advised us that it could not obtain a
special toll-free telephone number because of cost and timing.15 It still plans to monitor call


13
   The data were not validated and are used for perspective only.
14
   Contact Analytics is a tool for evaluating recorded audio from contact center recordings for identifying contact
center improvement opportunities.
15
   The IRS was unable to provide the cost of a toll-free telephone number.
                                                                                                             Page 12
                     Taxpayers Do Not Always Receive Quality Responses When
                                 Corresponding About Tax Issues



volume patterns and use Contact Analytics to secure specific taxpayer feedback on issues and
concerns with the interim letters
When an issue cannot be resolved timely, interim letters should be strategically mailed to
taxpayers alerting them of the delay. The letters should be clear and provide the taxpayer with
the status of the case and the expected time period to resolve the case. In addition, the IRS
should ensure that all taxpayers receive responses when appropriate and that it has a systemic
process to identify when a response has not been generated.

Inadequate and untimely responses to taxpayer correspondence adversely affect
taxpayers and tax administration
In an IRS customer satisfaction survey administered from July to September 2010 to taxpayers
who had adjustments cases closed in the Accounts Management function at each of the
10 campuses, taxpayers were least satisfied with the length of time to resolve their issues.16 The
overall satisfaction rate for the survey was 64 percent. Taxpayers provided the following five
top-priority improvements for correspondence:
     1. Length of time to resolve an issue.
     2. Ease of getting more information about the issue.
     3. Ease of understanding responses from the IRS.
     4. Keeping the taxpayer informed of the status of the issue.
     5. Explanation regarding the resolution of the taxpayer issue.
In the IRS 2009-2013 Strategic Plan, the IRS’s first goal is to improve service to make voluntary
compliance easier. To achieve this goal, the first objective is to incorporate taxpayer
perspectives to improve all service interactions — every interaction the IRS has with a taxpayer
must be seen from the taxpayer’s point of view, regardless of whether or not the IRS ultimately
agrees with the taxpayer’s position.
Taxpayers are burdened when issues are not timely and appropriately resolved. If
correspondence is not worked timely and systems are not updated to reflect a response by the
designated time, the IRS may issue the next notice to the taxpayer automatically or move an
account to the next step of the assessment or collection process.
Another downstream effect on the IRS and tax administration is that taxpayers may call the IRS
or visit a Taxpayer Assistance Center when they have not received a response to their
correspondence. It is more costly for the IRS to process paper correspondence than to provide
telephone services, but the most costly is face-to-face services. Taxpayers’ use of telephone

16
  Adjustment cases include incoming correspondence from taxpayers — responses to notices and letters, unsolicited
correspondence, amended returns, and claims. Results include both individual and business taxpayers.
                                                                                                        Page 13
                      Taxpayers Do Not Always Receive Quality Responses When
                                  Corresponding About Tax Issues



and/or face-to-face contact could cost the IRS more than it would cost to timely respond to
taxpayers’ correspondence.
The IRS cannot determine how many calls are made to its toll-free telephone lines or how many
taxpayers visit Taxpayer Assistance Centers when they cannot resolve their issues by
correspondence and/or they are unsure if the IRS is working on their issue. However, in Fiscal
Years 2008 and 2009, the Taxpayer Advocate Service received approximately 92,000 and
89,000 requests, respectively, for assistance from taxpayers who did not receive a timely
response from the IRS. The number increased to about 98,000 in Fiscal Year 2010 and is
approximately 33 percent of all requests received.
According to the IRS, 20 percent of taxpayers surveyed contacted the IRS about the same issues
they had on their prior year tax returns. Either the taxpayers did not get a response from the IRS
before they filed their next tax returns or they did not receive a response that they understood,
therefore possibly repeating the actions that required the IRS to send them the initial
correspondence. At times, taxpayers are filing their current year’s tax returns while trying to
resolve issues from prior years. From the two statistical samples of correspondence received in
Fiscal Year 2010 from 146 taxpayers—*****************1**************************.
However, 79 tax returns (54 percent) involved Tax Year 2009 returns, and 66 tax returns
(45 percent) involved tax returns prior to Tax Year 2009.

The IRS is not following Policy Statement P-6-12 guidelines
In July 1998, the IRS Restructuring and Reform Act of 199817 was implemented and states that a
significant hardship includes when there is a delay of more than 30 days in resolving taxpayer
account problems. Policy Statement P-6-12 guidelines state that a final response to the taxpayer
is to be initiated by the 30th day from the earliest IRS received date.
The IRS is not following Policy Statement P-6-12 guidelines and has not implemented any
measures or processes to monitor and evaluate 30 day correspondence. Current processes do not
provide a quality response—one that is accurate, timely, and addresses all issues. The IRS
designated certain incoming mail to meet the Policy Statement P-6-12 criteria:
        The key to identifying Policy Statement P-6-12 is to ask:
        “Is the initiator of the correspondence asking a question, or waiting for a reply or an action to be
        taken?”

Eight examples of what meets the criteria are then provided, including incoming taxpayer
responses that provide additional information. Guidelines also list more than 20 types of
correspondence that do not meet the criteria including delinquent and amended tax returns,
extensions to file, address changes, correspondence not dealing with a taxpayer’s account, and all

17
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                              Page 14
                  Taxpayers Do Not Always Receive Quality Responses When
                              Corresponding About Tax Issues



correspondence received in response to IRS solicitations for information necessary to secure or
complete the processing of a tax return.
The IRS has been concerned about timely responses to taxpayers and took steps in 1990 to
ensure it provides timely and quality responses to taxpayers. The IRS has formed numerous
teams to study correspondence timeliness and has set policies requiring a response to the
taxpayer be initiated within 30 days. Currently, all correspondence requiring a response is
treated as Policy P-6-12 correspondence. Yet, IRS guidelines differentiate between what is and
is not classified as Policy P-6-12 correspondence. Guidelines should be updated to reflect the
IRS’s actual procedures and expectations.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Clarify instructions to ensure employees understand when a case
requires a written response from the IRS, when a case should be placed in suspense or closed,
and when correspondence should be linked to prior cases.
       Management’s Response: The IRS generally agreed with this recommendation
       stating that there are clear instructions throughout the Internal Revenue Manual for IRS
       employees; however, it will review the instructions to see if clarifications are necessary to
       ensure proper employee understanding. Comprehensive training is also provided by the
       Accounts Management function, the Field Assistance Office, and Automated
       Underreporter Program to ensure employees understand when a case requires a written
       response, when it should be placed in suspense or closed, and when correspondence
       should be linked to prior cases. The IRS will continue to ensure that training reflects the
       most up-to-date procedures.
       Office of Audit Comment: Although the IRS believes the instructions are clear, tests
       of correspondence from our 2 samples required that taxpayers receive responses to their
       correspondence, but responses were not sent—6 (8 percent) of these were from the
       Accounts Management function and 7 (10 percent) were from the Field Assistance
       Office. Also, test results identified that assistors are not linking cases—6 (8 percent) of
       73 cases in the Accounts Management function should have been linked to the original
       case and were not and 17 (23 percent) of 73 cases in the Field Assistance Office should
       have been linked to the original case and were not.
Recommendation 2: Revisit Policy Statement P-6-12 guidelines to ensure they reflect the
IRS’s current procedures and expectations.
       Management’s Response: The IRS agreed with this recommendation and has
       revised the Internal Revenue Manual accordingly. Policy Statement P-6-12 includes
       general guidelines. Any change in specific procedures would be made within the Internal

                                                                                           Page 15
                  Taxpayers Do Not Always Receive Quality Responses When
                              Corresponding About Tax Issues



       Revenue Manual, not the Policy Statement. To ensure adherence to Policy
       Statement P-6-12 guidelines, the IRS recently revised the Internal Revenue Manual,
       Quality and Timely Responses, to clarify the definition of a timely response to include
       the issuance of an interim letter.
Recommendation 3: Complete the study of the interim letters to ensure they: 1) are
strategically timed, 2) alert taxpayers of delays and provide taxpayers with an accurate status and
time period for case resolution, 3) provide taxpayers with sufficient information to deter them
from using other channels to contact the IRS regarding their case, and 4) are clear and concise.
       Management’s Response: The IRS agreed with this recommendation and will
       complete a four-phase study of interim letters. After gathering more detailed data on the
       current process, the IRS plans to develop new or revised interim letters using the plain
       language guidelines and modify the timing of interim letters to ensure it provides
       taxpayers with sufficient information in a timely manner.
Recommendation 4: Update quality review procedures to include a review of
correspondence category codes and a determination as to whether cases should have been
suspensed and/or linked.
       Management’s Response: The IRS agreed with this recommendation stating it is
       already taking steps to address quality revenue procedures. Guidance on the use of
       correspondence category codes and the suspension and linking of cases are covered by
       various portions of the Account Resolution sections in the Internal Revenue Manual. The
       Internal Revenue Manual instructs quality reviewers to review the entire case file from
       the IRS received date to the closing date and to review all actions taken on the case. This
       instruction includes reviewing correspondence category codes and whether a case should
       have been suspended or linked.
       Office of Audit Comment: The IRS stated in its response that it did not agree with
       our 5-year projected outcomes because we used a 5 percent error rate for the sample size
       of taxpayer correspondence cases processed. It believes we should have used a 50
       percent error rate, which would have resulted in a larger sample size.
       The fact that the samples of 73 cases are random samples from the defined universe of
       cases makes the samples valid statistical samples, where the results of the samples can be
       projected to the universe. That the samples of 73 were derived from a formula using an
       estimated 5 percent error rate is irrelevant as to whether or not the samples of 73 cases
       are valid samples. Larger sample sizes would produce a more precise (narrower)
       confidence interval but would require a higher level of resources.
       The 5-year projections are, in fact, forecasts. These forecasts assume that the error trends
       present in Fiscal Year 2010 will remain constant over the next 5 years. This type of
       forecasting is used by the Federal Government in many instances.

                                                                                           Page 16
                  Taxpayers Do Not Always Receive Quality Responses When
                              Corresponding About Tax Issues



                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS was appropriately processing
correspondence from taxpayers or their representatives when required to meet its own policy
requirements to respond to a taxpayer within 30 calendar days or provide an update on the status
of the response. To accomplish this objective, we:
I.     Determined the process the IRS uses to respond to Policy Statement P-6-12
       correspondence.
       A. Identified the process used by IRS functions to process taxpayer correspondence.
       B. Evaluated internal controls, such as time to process taxpayer correspondence, to
          ensure the process is an effective tool to prevent taxpayers from having to submit
          redundant correspondence to obtain an accurate and timely response.
       C. For each function processing correspondence, determined the types and statistical
          data tracked for taxpayer correspondence.
II.    Evaluated whether taxpayers are provided an accurate and timely response within
       30 calendar days of receipt of the correspondence.
       A. Identified which functions work Policy Statement P-6-12 correspondence and
          selected three. We selected the two functions with the highest volume of
          correspondence received – the Accounts Management function and the Automated
          Underreporter Program. We also selected the Field Assistance Office because its
          employees work correspondence inventory and assist the Accounts Management
          function with processing correspondence.
       B. Obtained data from the Accounts Management Services system and the Automated
          Underreporter database to determine the population of taxpayer correspondence cases
          for Fiscal Year 2010. The database and system maintain the inventories of
          correspondence cases.
       C. Stratified the data by determining cases closed and Taxpayer Request category code.
       D. Selected a statistically valid sample of 73 individual taxpayer correspondence cases
          processed in the Accounts Management function from a population of
          1,221,394 cases. We used a 5 percent error rate, ±5 percent precision, and a
          95 percent confidence interval.



                                                                                         Page 17
                     Taxpayers Do Not Always Receive Quality Responses When
                                 Corresponding About Tax Issues



        E. Selected a statistically valid sample of 73 individual taxpayer correspondence cases in
           the Field Assistance Office from a population of 121,438. We used a 5 percent error
           rate, ±5 percent precision, and a 95 percent confidence interval.
        F. Selected a judgmental sample of 48 cases from the Automated Underreporter
           Program database from a population of 2,716,596 taxpayer accounts. Because of the
           resources that would have been required to oversample, a judgmental sample was
           used. Most cases do not include taxpayer correspondence.
        G. Validated the data from the Accounts Management Services system and the
           Automated Underreporter database by researching the IRS Integrated Data Retrieval
           System1 to determine the accuracy of each case. We discussed the systems with IRS
           officials and researched access and process guidelines.
        H. Determined the effect to the taxpayer and tax administration of taxpayer
           correspondence not being processed accurately and timely.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s internal guidelines used by the
functions that process Policy Statement P-6-12 correspondence and the management information
systems used to control Policy Statement P-6-12 correspondence. We evaluated controls by
interviewing management and reviewing policies and procedures. We selected two statistically
valid samples and one judgmental sample, and conducted tests related to Policy Statement
P-6-12 correspondence.




1
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 18
                 Taxpayers Do Not Always Receive Quality Responses When
                             Corresponding About Tax Issues



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit, (Returns Processing and Account
Services)
Augusta R. Cook, Director
Lena Dietles, Audit Manager
Jerry Douglas, Lead Auditor
Roberta Fuller, Senior Auditor
Robert Howes, Senior Auditor
Jerome Antoine, Auditor
Kathy Coote, Auditor
Nelva Usher, Auditor




                                                                                    Page 19
                 Taxpayers Do Not Always Receive Quality Responses When
                             Corresponding About Tax Issues



                                                                          Appendix III


                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Technology Officer OS:CTO
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Joint Operation Center, Wage and Investment Division SE:W:CAS:JOC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Senior Operations Advisor, Wage and Investment Division SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Technology Officer OS:CTO
       Commissioner, Small Business/Self-Employed Division SE:S
       Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                  Page 20
                       Taxpayers Do Not Always Receive Quality Responses When
                                   Corresponding About Tax Issues



                                                                                 Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•     Taxpayer Burden – Potential; 1,101,052 taxpayers affected, projected to 5,505,260 taxpayers
      over 5 years (see page 3).

Methodology Used to Measure the Reported Benefit:
From Fiscal Year 2010 data provided by the IRS, computer analysis was used to stratify and
identify a universe of 1,221,394 cases closed in the Accounts Management function and
121,438 cases processed in the Field Assistance Office. Statistical sampling was used to select
73 taxpayer correspondence cases from each function. From the statistical sample, we
determined whether taxpayers received a quality response to their correspondence.
Of the 73 closed taxpayer correspondence cases sampled from the Accounts Management
function, 59 (81 percent) taxpayers were not provided a quality response. Projected to the
universe of 1,221,394 closed taxpayer cases, there may have been 989,329 taxpayers who did not
receive a quality response, and 4,946,645 taxpayers projected over 5 years.
Of the 73 closed taxpayer correspondence cases sampled from the Field Assistance Office,
67 (92 percent) taxpayers were not provided a quality response. Projected to the universe of
121,438 closed taxpayer cases, there may have been 111,723 taxpayers who did not receive a
quality response, and 558,615 taxpayers projected over 5 years.

Type and Value of Outcome Measure:
•     Cost Savings – Funds Put to Better Use – Potential; $424,318 related to 1,039,997 interim
      letters, projected to $2,121,590 over 5 years (see page 3).1

Methodology Used to Measure the Reported Benefit:
From Fiscal Year 2010 data provided by the IRS, computer analysis was used to stratify and
identify a universe of 1,221,394 taxpayer correspondence cases closed in the Accounts

1
    Due to rounding numbers may not balance.
                                                                                          Page 21
                        Taxpayers Do Not Always Receive Quality Responses When
                                    Corresponding About Tax Issues



Management function and 121,438 cases closed in the Field Assistance Office. Statistical
sampling was used to identify a statistical sample of 73 closed taxpayer correspondence cases
from each function.
Accounts Management function
From the data provided, we identified 54 interim letters were mailed to taxpayers.
Based on the statistical sample of 73 closed cases, we determined:
       •   No interim letters were mailed for 31 cases (42.47 percent).
       •   1 interim letter was mailed for 30 cases (41.10 percent).
       •   2 interim letters were mailed for 12 cases (16.44 percent).
Projected over the universe of 1,221,394 cases:
       •   1 interim letter mailed for 501,993 cases, resulting in 501,993 letters.
       •   2 interim letters mailed for 200,797 cases, resulting in 401,594 letters.
The cost of issuing 903,587 (501,993 + 401,594) interim letters at $0.4082 per interim letter is
$368,663, projected to $1,843,315 over 5 years.
Field Assistance Office
From the data provided, we identified 82 interim letters were mailed to taxpayers.
Based on the statistical sample of 73 closed cases, we determined:
       •   No interim letters were mailed for eight cases (10.96 percent).
       •   1 interim letter was mailed for 50 cases (68.49 percent).
       •   2 interim letters were mailed for 13 cases (17.81 percent).
       •   *******************1************************************.
Projected over the universe of 121,438 cases:
       •   1 interim letter was issued for 83,173 cases, resulting in 83,173 letters.
       •   2 interim letters were mailed for 21,628 cases, resulting in 43,256 letters.
       •   3 interim letters were mailed 3,327 cases, resulting in 9,981 letters.
The cost of mailing 136,410 interim letters (83,173 + 43,256 + 9,981) at $0.408 per interim letter
is $55,655, projected to $278,275 over 5 years.

2
    Cost includes paper, postage, and inserts. Staff and overhead costs could not be determined.
                                                                                                   Page 22
                  Taxpayers Do Not Always Receive Quality Responses When
                              Corresponding About Tax Issues



Type and Value of Outcome Measure:
•   Reliability of Information – Potential; 312,495 cases with incorrect category codes, projected
    to 1,562,475 cases over 5 years (see page 3).
From Fiscal Year 2010 data provided by the IRS, computer analysis was used to stratify and
identify a universe of 1,221,394 cases closed in the Accounts Management function and
121,438 cases processed in the Field Assistance Office. Statistical sampling was used to select
73 taxpayer correspondence cases from each function. From the statistical sample, we
determined whether taxpayer correspondence was classified with the correct category code.
Accounts Management function
Tests identified that 17 (23 percent) cases were classified with the incorrect category code.
Projected over a population of 1,221,394, potentially 280,921 cases were classified incorrectly;
and projected over 5 years, 1,404,605 cases were classified with the incorrect category code.
The statistical sample was based on a 5 percent error rate, a ±5 percent precision, and a
95 percent confidence interval for each sample.
Field Assistance Office
Tests identified 19 (26 percent) cases were classified with the incorrect category codes. Based
on a population of 121,438, potentially 31,574 cases were classified incorrectly, projected to
157,870 over 5 years. The statistical sample was based on a 5 percent error rate, a ±5 percent
precision, and a 95 percent confidence interval for each sample.




                                                                                          Page 23
     Taxpayers Do Not Always Receive Quality Responses When
                 Corresponding About Tax Issues



                                                  Appendix V

Management’s Response to the Draft Report




                                                        Page 24
Taxpayers Do Not Always Receive Quality Responses When
            Corresponding About Tax Issues




                                                   Page 25
Taxpayers Do Not Always Receive Quality Responses When
            Corresponding About Tax Issues




                                                   Page 26
Taxpayers Do Not Always Receive Quality Responses When
            Corresponding About Tax Issues




                                                   Page 27
Taxpayers Do Not Always Receive Quality Responses When
            Corresponding About Tax Issues




                                                   Page 28
